                           STATE OF LOUISIANA

                EVALUATION OF GRANT OBLIGATIONS
                       AND EXPENDITURES

               WORKFORCE INVESTMENT ACT GRANTS
                AND JOB TRAINING PARTNERSHIP ACT
                        TRANSITION FUNDS


               INDEPENDENT ACCOUNTANT’S REPORT
              ON APPLYING AGREED-UPON PROCEDURES

               JULY 1, 2000 THROUGH DECEMBER 31, 2001




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, P.A.,
under contract to the U.S. Department of Labor, Office of the Inspector General, and, by
acceptance, it becomes a report of the Office of Inspector General.


                         _____________________________________
                         Assistant Inspector General for Audit
                         U. S. Department of Labor




                                               Report No: 04-03-008-03-390
                                               Date Issued: March 28, 2003

                 HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                                TABLE OF CONTENTS


Acronyms .......................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures .................................... 1

Summary of Results ........................................................................................................................ 2

Background, Scope and Methodology ........................................................................................... 3

           Background ......................................................................................................................... 3
           Scope and Methodology...................................................................................................... 4

Procedures and Findings ................................................................................................................. 5

Exhibit I – Sample Financial Status Report

Exhibit II – State of Louisiana’s Response




                                                                  ii
                       ACRONYMS


DOL    U.S. Department of Labor

ETA    Employment and Training Administration

FIFO   First-In-First-Out

FSR    Financial Status Report

FY     Fiscal Year

JTPA   Job Training Partnership Act

LDOL   Louisiana Department of Labor

MER    Monthly Expenditure Report

OGCM   Office of Grants and Contract Management

OIG    Office of the Inspector General

PY     Program Year

WIA    Workforce Investment Act

WIB    Workforce Investment Board




                            iii
                               SUMMARY OF RESULTS


We summarized the WIA funds obligated and expended by the State of Louisiana as of
December 31, 2001. We determined that obligation information reported by the State to
ETA on Financial Status Reports (FSRs) included actual obligations for Statewide
activities. However, obligations reported on FSRs attributable to Local Board activities
represented amounts that had been expended by the Local Boards. This method of
reporting understates actual obligations.

We found that the accounting records supported amounts reported as expenditures on
quarterly financial reports. Procedures were established for recording transactions on the
accrual basis of accounting in accordance with Federal regulations. However, we found
that two of the three Local Boards visited used the cash basis of accounting for reporting
information to the State. Expenditures reported to the State by the Local Boards were
substantiated by monthly reports submitted from the Local Boards and subcontractors.

As of December 31, 2001, Louisiana had expended $63.3 million of the $143 million
awarded, leaving $79.7 million or 55.7 percent unexpended. At this rate of spending, it
would take approximately 22 months to spend the remaining funds, during which time
the State would receive additional WIA allocations.

The State employed a First-In-First-Out (FIFO) methodology by charging expenditures to
the oldest funds available, rather than matching expenditures with the award applicable to
the period in which the expenditures occurred. As a result, a particular period’s
performance could not be assessed due to the dissociation of its costs with its funding.

State of Louisiana's Response

The Louisiana Department of Labor provided a written response to our draft report,
which is included in its entirety at Exhibit II. In general, the State agreed with the
information presented in the report, but provided additional comments. Louisiana stated
that charging expenditures to WIA grants on a FIFO basis is an acceptable practice under
WIA regulations.

Our procedures were not intended to determine Louisiana's compliance with program
requirements. However, by using the FIFO basis, Louisiana does charge current
expenditures to prior period funds until exhausted.




                                            2
                  BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and
create a new comprehensive workforce investment system. The new system intends to
provide customer-focused services, assist Americans in accessing the tools needed to
manage their careers through information and services, and assist U.S. companies in
finding skilled workers. The WIA superseded the JTPA and amended the Wagner-Peyser
Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in PY 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA programs were
authorized for transition into the WIA program. Generally, the states are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). States have the original program year plus two additional program years
to spend the grant funds. However, funds allocated by a State to a Local Board for any
program year are available for expenditure only during that program year and the
succeeding program year. Funds that are not expended by a Local Board in this two-year
period must be returned to the State.

States are required to report WIA activities on quarterly FSRs. Accrued expenditures and
obligations are key items reported on the FSRs. Accrued expenditures are reported when
a valid liability has been created through delivery of goods or services, regardless of
when cash payment is made. For example, salaries earned by employees, but not yet
paid, should be recorded as accrued expenditures. Obligations are reported when certain
events occur which will require payment by the States or Local Boards in the same or a
future period. Obligations are defined in the WIA regulation as follows:

       …the amounts of orders placed, contracts and subgrants awarded,
       goods and services received, and similar transactions during a funding
       period that will require payment by the recipient or subrecipient during
       the same or a future period [20 CFR 660.300] (emphasis added).

However, according to ETA, Office of Grants and Contract Management (OGCM),
States have verbally been instructed to report obligations incurred at the state level
(Statewide Activities and Rapid Response) only for those amounts of funding for which a
legal obligation exists at the State Level. Likewise, the States have been instructed to
report obligations for Local Board activities (Local Administration, Youth, Adult and
Dislocated Workers), only for those amounts of funding for which a legal obligation
exists at the Local Board level. ETA had not clearly specified whether Local Board
obligations or the State’s pass-through awards should be included on FSRs.




                                            3
Scope and Methodology

Our agreed-upon procedures encompass WIA funds awarded to Louisiana for PY 2000,
FY 2001, PY 2001 and FY 2002, as well as PY 1998 and PY 1999 JTPA funds
transitioned into the WIA program. Procedures were applied to grant activities reported
by the State and three Local Boards (East Baton Rouge Parish Workforce Investment
Board, the St. Landry Workforce Investment Board and New Orleans Workforce
Investment Board) from July 1, 2000 through December 31, 2001.

In general, our procedures were designed to summarize Louisiana’s WIA financial
activity (obligations and expenditures) through December 31, 2001, to determine if the
amounts reported to ETA agreed with the supporting accounting records, and to measure
the extent to which the State and Local Boards have obligated and expended WIA funds.




                                           4
                        PROCEDURES AND FINDINGS



1. Interview the appropriate State personnel regarding how information is
   accumulated from the Local Boards and about the preparation of the FSR
   269s. Using this information, verify exactly what obligations were reported
   on the December 31, 2001 WIA Quarterly Financial Status Reports.
   Determine if the amounts passed through to the Local Boards are reported as
   obligations on the FSRs. Based on the information obtained, determine if the
   State is reporting obligations as described at 20 CFR 660.300 to include
   subgrants awarded to subrecipients.

   As of December 31, 2001, the amounts reported on FSRs as “obligations” by
   Louisiana represented amounts that Local Boards had expended for operation of
   the Adult, Youth and Dislocated Worker programs as well as administrative
   expenses at the Local Board level. Therefore, for those funds passed down to
   Local Boards, Total Federal Obligations were the same as Net Federal Outlays.
   The State’s total allocations of funding to the Local Boards were not reported to
   the DOL on the FSRs as Total Federal Obligations. However, for Statewide
   Activities and Rapid Response, the amounts reported as “obligations” were the
   actual obligations at the State level.

2. Determine how the State tracks the various funding periods for both State
   activities and Local Board activities, and if data is accounted for in a manner
   that will allow costs to be matched against the appropriate obligation.

   Based on discussions with representatives of LDOL, as well as examination of
   financial records at the State and Local Board levels, we determined that LDOL
   does not match expenditures with the appropriate fiscal period’s funding. Rather,
   current expenditures are charged to the oldest available funding.

   Expenditure information reported to the State by Local Boards is segregated by
   funding period; however, expenditures were charged to the earliest year that
   funding remained available, rather than the year in which the expenditures
   accrued. As a result, a program’s cost could not be matched to the year in which
   it actually accrued.




                                        5
3. Determine if the cost information (Outlays on the December 31, 2001 FSRs)
   was reported on the accrual basis of accounting as required at 29 CFR 97
   and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

   As discussed in greater detail at item 8 of this report, reporting by Local Boards to
   the State consisted of the Monthly Expenditure Reports (MERs). MERs include
   among other things, expenditures incurred to date by Local Boards. These
   amounts then roll up into the Federal FSR as “Net Federal Outlays” and as “Total
   Federal Obligations”.

   We reviewed the reporting instructions provided by LDOL to the Local Boards
   and determined that the amounts identified as “accrued expenditures” should be
   inclusive of expenditures that have been incurred but for which payment has not
   been made by the Local Boards. This manner of reporting is consistent with the
   accrual basis of accounting as required by 29 CFR 97 and the reporting
   instructions at 20 CFR 667.300.

   However, after reviewing the MERs and supporting information at the Local
   Boards, we found that two of the three Local Boards visited, New Orleans
   Workforce Investment Board (WIB) and St. Landry WIB, reported expenditures
   on the cash basis rather than the accrual basis as instructed by LDOL. Therefore,
   the accrual basis of accounting was not employed uniformly in Louisiana in
   accordance with WIA reporting instructions at 20 CFR 667.300 (c) (3).

4. Determine what information is required to be reported by the Local Boards
   to the State, including the content, format, frequency and any written
   instructions issued by the State. Obtain copies of reports submitted by the
   Local Boards and copies of written instructions.

   Our review of financial reporting requirements established by LDOL revealed that
   Local Boards are required to report total Federal funds available, monthly
   expenditures as well as cumulative expenditures to date on MERs each month of a
   fund’s availability period.

   We obtained copies of MERs for the month ending December 31, 2001 for those
   Local Boards we visited.




                                         6
5. Obtain or prepare from documents supporting the FSR 269s, a summary of
   the FSRs from the Local Boards and analyze this information to select the
   Local Boards to visit.

   We summarized the allocations to the Local Boards and their reported
   expenditures. After analyzing this information, we made a judgmental selection
   of three Local Boards in which to conduct fieldwork. The Local Boards selected
   for site visits were the East Baton Rouge Parish Workforce Investment Board, the
   St. Landry Workforce Investment Board and the New Orleans Workforce
   Investment Board offices.

6. Compare the information compiled at ETA to the reports prepared by the
   States and explain any differences determined.

   We examined the FSRs reported by LDOL to the DOL, and compared them to the
   corresponding data compiled at ETA. The information on the FSRs was
   consistent with the information compiled at ETA. Key elements of the FSR data
   were extracted from the reports, including Total Federal Funds Authorized,
   Obligations, Outlays (accrued expenditures), and the Unobligated Balance of
   Federal Funds for each funding stream, PY and FY. This extracted data was then
   used to perform the analytical procedures as described at item 7 of this report.




                                       7
7. Perform an analytical review of the information obtained to develop trend
   information and investigate any unusual relationships noted.

   Total Federal Funds Authorized

   The table below shows the total WIA funds awarded by the DOL to the State of
   Louisiana since inception of the WIA program:

   Funding      Beginning of        Expiration of       Total WIA Funds
    Period     Spending Period     Spending Period          Awarded

   PY 1998 JTPA transition         June 30, 2001        $     403,045

   PY 1999 JTPA transition         June 30, 2002        $ 11,799,090

   PY 2000 July 1, 2000            June 30, 2003        $ 34,855,558

   FY 2001 October 1, 2000         June 30, 2003        $ 31,745,279

   PY 2001 July 1, 2001            June 30, 2004        $ 36,095,469

   FY 2002 October 1, 2001         June 30, 2004        $ 30,648,466

   Less:      Rescission of PY 2001 funds              ($ 2,506,863)
                          Total Awards                  $ 143,040,044

   WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth
   grants that are available in the April preceding the start of the PY. However, a
   portion of PY 2000 and 2001 funding denoted as “FY” above, was not available
   until October 1 of each respective PY.




                                       8
7.     (Continued)

       WIA Funds Allocated

       The data presented below reflect the total WIA funds allocated by the State as of
       the quarter ended December 31, 2001.

             Funding           Total Funds          Total WIA Funds   Unobligated                Percent of
              Period             Awarded              Allocated to     Portion of                Funding
                               (in millions)          Local Boards  Allocated Funds             Unobligated
                                                      (in millions)   (in millions)
     PY 1998                      $ 0.4                  $ 0.4           $ 0.0                        0.0 %

     PY 1999                      $ 11.8                $ 11.6                 $ 0.2                  1.7 %

     PY 2000                      $ 34.9                $ 34.1                 $ 0.8                  2.3 %

     FY 2001                      $ 31.7                $ 26.4                 $ 5.3                  16.7 %

     PY 2001                      $ 36.1                $ 31.6                 $ 4.5                  12.5 %

     FY 2002                      $ 30.6                $ 23.0                 $ 7.6                  24.8 %

     Less:
     PY 2001 Rescission          ($    2.5)            ($    2.5)                 N/A                   N/A

     Total                       $ 143.0                $ 124.6                $ 18.4                 12.9%

       Note: Information in the above table was obtained from quarterly Financial Status Reports
       prepared by LDOL and summarized. Additionally, a portion of PY 2001 funding was rescinded as
       noted above.

       According to Louisiana officials, in addition to obligations made at the State level
       Louisiana considers funds to be “obligated” upon their allocation to the Local
       Boards. Although the State considers all allocated funds to be obligated, total
       allocations are, nevertheless, not reported to the DOL on the FSRs as Total
       Federal Obligations. Instead, the amounts which have been expended at the Local
       Boards for the Local Administration, Adult, Youth and Dislocated Worker
       funding streams in addition to the obligations for the Statewide Activities and
       Statewide Rapid Response funding streams are reported on the line of the FSRs
       designated for “Obligations”. Of the total $143 million available, $18.4 million
       (12.9 percent) remained unobligated as of December 31, 2001.




                                                9
7.     (Continued)

       WIA Funds Obligated

       Data presented below reflect total WIA funds obligated as of the quarter ended
       December 31, 2001.

             Funding           Total Funds          Total WIA Funds       Portion of WIA          Percent of
              Period             Awarded               Reported as        Funds Reported          Funding
                               (in millions)           Obligated          as Unobligated         Unobligated
                                                      (in millions)         (in millions)
     PY 1998                       $ 0.4                 $ 0.4                 $ 0.0                  0.0 %

     PY 1999                       $ 11.8               $ 11.6                  $ 0.2                 1.7 %

     PY 2000                       $ 34.9               $ 29.8                  $ 5.1                 14.6 %

     FY 2001                       $ 31.7               $ 18.5                  $ 13.2                41.6 %

     PY 2001                       $ 36.1                $ 5.9                  $ 30.2                83.7 %

     FY 2002                       $ 30.6                $ 1.6                  $ 29.0                94.8 %

     Less:
     PY 2001 Rescission           ($   2.5)                 N/A                ($    2.5)               N/A

     Total                        $ 143.0                $ 67.8                 $ 75.2                52.6 %

       Note: Information in the above table was obtained from quarterly Financial Status Reports
       prepared by LDOL and summarized. Additionally, a portion of PY 2001 funding was rescinded as
       noted above.



       Of the total $143 million available, $67.8 million (47.4 percent) was reported as
       obligated and $75.2 million (52.6 percent) remained unobligated as of
       December 31, 2001. However, as mentioned at item number 1, the amounts
       reported as “Obligations” on the FSRs were actually expenditures at the Local
       Board level in addition to the amounts obligated at the State level.




                                               10
7.     (Continued)

       Federal Expenditures

       The following summary reflects total WIA expenditures reported by Louisiana
       through December 31, 2001. These amounts are recorded in DOL’s general
       ledger.

                               Total Funds           Total              Amount             Percent of
                                 Awarded         Expenditures         Unexpended            Funding
       Funding Period          (in millions)     (in millions)        (in millions)       Unexpended
     PY 1998                      $ 0.4              $ 0.4                $ 0.0              0.0%

     PY 1999                      $ 11.8             $ 11.6               $ 0.2                1.7%

     PY 2000                      $ 34.9             $ 29.0               $ 5.9               16.9%

     FY 2001                      $ 31.7             $ 17.0               $ 14.7              46.4%

     PY 2001                      $ 36.1             $ 3.7                $ 32.4              89.8%

     FY 2002                      $ 30.6             $ 1.6                $ 29.0              94.8%

     Less:
     PY 2001 Rescission          ($    2.5)            N/A              ($    2.5)              N/A

     Total                       $ 143.0             $ 63.3               $ 79.7              55.7%

       Note: Information in the above table was obtained from quarterly Financial Status Reports
       prepared by LDOL and summarized. Additionally, a portion of PY 2001 funding was rescinded as
       noted above.

       Of the $143 million WIA funds awarded to Louisiana, the State spent $63.3
       million (44.3 percent), leaving $79.7 million (55.7 percent) unspent as of
       December 31, 2001. At this rate of spending, it would take approximately 22
       months to spend the remaining funds, during which time the State would receive
       additional WIA allocations.




                                               11
7.   (Continued)

     Expenditure Analysis by Funding Stream

     The following provides a summary of the unexpended funding by program
     component:

                                     Amount             Amount           Percent of
                                     Awarded          Unexpended          Funding
     Program Component             (in millions)      (in millions)     Unexpended

     Local Board Activities:
     Adults                            $   34.8          $ 17.0             48.9 %
     Dislocated Worker                 $   27.4          $ 16.0             58.4 %
     Local Admin                       $   11.1          $ 4.6              41.4 %
     Youth                             $   37.8          $ 21.7             57.4 %
     Total Local Board
      Activities                       $ 111.1           $ 59.3             53.4 %

     State Activities:
     State-wide Activities             $ 22.5            $ 12.1             53.8 %
     State Rapid Response              $ 11.9            $ 10.8             90.8 %
     Total State Activities            $ 34.4            $ 22.9             66.6 %
     Less:
     PY 2001 Rescission               ($    2.5)        ($    2.5)           0.0 %


     Total Funding                     $ 143.0            $ 79.7           55.7 %

     Note: Information in the above table was obtained from the supporting schedules for the
     quarterly Financial Status Reports prepared by LDOL and summarized. Additionally, a portion of
     PY 2001 funding was rescinded as noted above.

     The expenditure data submitted by the State through December 31, 2001,
     indicates that a significant amount of WIA funds at both the State and Local
     Board levels were not expended as of that date (66.6 percent and 53.4 percent,
     respectively).




                                              12
8.   Interview the appropriate Local Board personnel regarding how information
     is accumulated and about the preparation of the Local Board reports to the
     State. Inquire as to the source of obligation, cost and/or payment
     information reported to the State by the Local Board, and determine if the
     information reported agrees with the corresponding source accounting
     records.

     Through discussions with Local Board personnel we determined that expenditure
     information, as well as funding availability by period are reported to the State
     using MERs. The MERs show Federal fund allocation for each PY and FY in
     addition to monthly and cumulative expenditures. We reviewed source
     accounting records at the three Local Boards we visited to determine if they
     supported the information reported to the State. In all instances, the Local Boards
     provided documentation supporting the amounts reported as expenditures on the
     MERs. As previously discussed, obligations are not accounted for at the Local
     level.

9.   Determine how the Local Board tracks the various funding periods and if
     data is reported and accounted for in a manner which will allow costs to be
     matched against the appropriate obligation or subcontract agreement.

     The Local Boards employ First-In First-Out (FIFO) methodology in charging
     expenditures to funding sources. This methodology does not allow for matching
     of a particular period’s expenditures with the funding allotted to that period. As
     such, expenditures are not matched with the funding applicable to the period in
     which they accrued, rather they are charged against the oldest period with
     remaining funds until those funds have been exhausted. Expenditures will then be
     charged against the oldest subsequent periods’ funding.

     For example, any amount of PY 2000 funding that remained after PY 2000 had
     lapsed would be used to satisfy a subsequent period’s expenditures until all of PY
     2000 funding was exhausted. Subsequently, PY 2001 funding would have been
     used to satisfy the period’s expenditures. Matching a period’s expenditures
     against prior period funding in this manner dissociates the funding allotted to a
     specific period from the actual cost of performance during that period.




                                         13
10.   Determine how the Local Board defines an obligation and the point at which
      funds are considered to be obligated. Determine if the Local Board
      definition includes only anticipated expenditures to meet bona fide needs of
      the funding program year and for which a legal liability exists.

      At the three Local Boards visited, representatives indicated that the “obligation”
      of funds coincides with the decision by Boards to authorize funding for a
      particular entity/ contractor to perform services under WIA. Funds are obligated
      in anticipation of making payments to service contractors in order to meet bona
      fide needs of the WIA program. The signing of a contract between the Board and
      a contractor results in a legal liability. However, as previously discussed, the
      Local Boards neither captured nor reported obligations.

      The Local Boards’ definition includes only anticipated expenditures to meet bona
      fide needs for which a legal liability exists. However, as mentioned at item
      number 9 of this report, there is no matching of the funding year and year in
      which expenditures accrue due to the State’s and Local Boards’ use of FIFO
      methodology.




                                          14
                                                                       EXHIBIT I

                  SAMPLE FINANCIAL STATUS REPORT




Following this title page is a WIA financial status report used to report program
activities to DOL.




                                    15
16
                                                                      EXHIBIT II

                      THE COMPLETE TEXT OF
                 LOUISIANA’S REPONSE TO THE DRAFT
                 AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Louisiana’s response to our
agreed-upon procedures report, issued to them on March 4, 2003.




                                     17
18
